                                 Closeout for M99050029

An OIG review of the accuracy of publication claims in the final project reports of randomly
selected NSF awards was unable to independently verify four of the eight publications listed
by a PI1in the final project report of an NSF award2and we opened a case on May 25,1999.
These particular claims (three poster abstracts and an institutional technical report) proved
difficult to authenticate because they do not appear in routinely accessible databases. The
four undiscovered citations were forwarded to the NSF librarian who was able to confirm
their existence.

OIG concludes that no false publication claims were made in connection with the NSF
award. This inquiry is closed and no further action will be taken.

cc: Integrity, IG




1
    footnotes redacted


                                        Page 1 of 1
